                             REVIEW REPORT                                   IG-03-025



Report Recipient:
H/Assistant Administrator
 for Procurement               NASA’S PURCHASE CARD PROGRAM WAS
                                EFFECTIVE; ADDITIONAL CONTROLS
                                   WILL FURTHER REDUCE RISK

                                                   August 25, 2003


  cc:
  JM/Team Lead (Audit)




                             OFFICE OF INSPECTOR GENERAL
                             Released by: [original signed by ]
                             David M. Cushing, Assistant Inspector General for Auditing
  National Aeronautics and
  Space Administration
IG-03-025                                                             August 25, 2003
 A-02-027-00

               NASA’s Purchase Card Program Was Effective;
                Additional Controls Will Further Reduce Risk

We found that the NASA purchase card program was managed effectively. For example,
the majority (97 percent) of sampled transactions were appropriate. Also, management
had established reasonable controls over the program. The controls included
(1) cardholder monthly bank statement reviews, which had identified fraudulent
purchases (Appendix C); (2) approving officials' reviews of the cardholders' monthly
bank statements; and (3) periodic (e.g., weekly, monthly) transaction reviews by Centers.
Further, between June 1, 2001 and May 31, 2002, NASA received rebates totaling
$578,000 from Bank of America for timely payments. Finally, based on the General
Service Administration's estimated savings per purchase card transaction, the purchases
saved NASA more than $7 million.

While the program was effective, we also found that NASA management can further
reduce potential risks of monetary loss and embarrassment by increasing controls over
purchase card accounts and by better enforcing the existing controls over the purchasing
process. NASA needs to increase controls to reduce inactive accounts (Finding A) and
verify account limits (Finding B). NASA also needs to improve enforcement of controls
to minimize inappropriate purchases (Finding C) and other procedural weaknesses
(Finding D).

At the Assistant Administrator for Procurement’s request, we reviewed the NASA
purchase card program. He requested that we validate whether the cardholders were
using their cards appropriately and whether NASA was providing adequate oversight and
training. In fiscal year 2002, NASA made about 189,000 purchases, valued at
$91.5 million, through the use of purchase cards. Further, NASA expects its use of
purchase cards to grow in the future. Recent public disclosures of inappropriate uses of
purchase cards in other Federal agencies prompted the Office of Management and Budget
to require all agencies to submit quarterly reports on credit card programs as part of
increased management oversight. We reviewed all 3,933 purchase accounts and sampled
660 purchase card transactions NASA-wide to evaluate the appropriateness of purchases
and the adequacy of purchase card program controls and training. Details on our audit
objectives, scope, and methodology are in Appendix B.

We made nine recommendations to help NASA management reduce potential risks by
increasing the monitoring of accounts, conducting refresher training, and providing
additional guidance.

Management concurred with all of the recommendations. The complete text of
management's response is in Appendix H. We consider management's proposed or
completed corrective actions responsive.


                                            2
Inactive Accounts

We found that 813 (20 percent) of 3,933 purchase accounts, as of June 14, 2002, had
been inactive for our 12-month review period. Based on random testing of 40 inactive
accounts, 16 (40 percent) had been inactive for more than 4 years. Further, 60 of the
inactive accounts belonged to cardholders who no longer work for NASA. See
Appendix D for information on the type and location of the inactive accounts. The
inactive accounts occurred because NASA did not have procedures that required
approving officials to periodically review account usage to determine whether inactive
accounts should be closed. Excessive inactive accounts increase the potential for
improper use if the accounts are compromised. The 813 inactive accounts had a
cumulative monthly credit limit total of $45.3 million. Further, the individual cards had
monthly credit limits ranging from $1,000 to $1 million.

Recommendations, Management's Response and Evaluation of Management's
Response

The Assistant Administrator for Procurement should require approving officials to:

   1. Conduct reviews of the 813 inactive accounts to determine whether they
      should be closed.

Management’s Response. Concur. The Assistant Administrator for Procurement
issued a letter in September 25, 2002 that required all procurement officers to identify
cards that are infrequently used and confirm the continued need for the identified cards.
In the letter, he also requested all procurement officers to examine the total number of
cards within the same organization to ensure the appropriate number of cardholders and
cancel/deactivate cards no longer required.

NASA cancelled 209 purchase cards (accounts) during the first quarter of fiscal year
2003. Center program coordinators will review the accounts identified as inactive by the
OIG to determine how many have already been cancelled and whether the remaining
accounts should be closed.

Evaluation of Management's Response. Management's corrective actions were
responsive to the recommendation. The recommendation is resolved and dispositioned,
and will be closed for reporting purposes.

   2. Establish procedures for periodic account reviews to identify inactive
      accounts and to take appropriate action.

Management’s Response. Concur with intent. NASA considered the center program
coordinators as being the appropriate individuals responsible for establishing center
procedures for periodic account reviews. Several centers have established procedures for
the periodic review of accounts. A Procurement Information Circular (PIC) will be
issued by October 31, 2003, to provide guidance for periodic account review.



                                             3
Evaluation of Management's Response. Management's proposed and completed
actions were responsive to the intent of the recommendation. The recommendation is
resolved but will remain undispositioned and open until the proposed PIC is issued.

Purchase Account Limits Exceeded Guidelines or Authorization

We found 85 purchase accounts that had transaction limits that exceeded the NASA
Federal Acquisition Regulation (FAR) Supplement guidelines and 30 purchase accounts
for which the cardholders' monthly credit limits exceeded procurement officers'
authorizations. See Appendix E for the location of accounts with incorrect transaction
and credit limits. The NASA FAR Supplement limited noncontracting officers’ purchase
card limits to no more than $2,500 per transaction. The 85 accounts had transaction
limits that ranged from $5,000 to $100,000. The 30 accounts had monthly credit limits
that ranged from $40,000 to $4.7 million. The excessive limits occurred because NASA
lacked procedures for periodic account limit reviews and did not maintain documentation
of initial account transaction and credit limits authorized by procurement officers or
subsequent modifications of the limits. In addition, the procurement officers did not
always include credit limits in their written delegations to the cardholders. Excessive
limits increase the risk of inappropriate use and financial loss.

Recommendations, Management's Response and Evaluation of Management's
Response

The Assistant Administrator for Procurement should require:

   3. Approving officials to periodically review accounts and to adjust transaction
      limits and credit limits to match the amounts authorized.

Management’s Response. Concur. The need for periodic account reviews that
address transaction limits will be included in the PIC referenced in the response to
Recommendation 2. The PIC will be issued by October 31, 2003.

Evaluation of Management's Response. Management's proposed action was
responsive to the recommendation. The recommendation is resolved but will remain
undispositioned and open until the proposed PIC is issued.

   4. Center management to establish procedures to maintain documentation of
      initial account transaction and authorized credit limits and subsequent
      modifications.

Management’s Response. Concur. The PIC referenced above will provide guidance
on the requirement to maintain documentation of account transaction and credit limits
and any amendments to the amounts authorized. The PIC will be issued by October 31,
2003.




                                             4
Evaluation of Management's Response. Management's proposed action was
responsive to the recommendation. The recommendation is resolved but will remain
undispositioned and open until the proposed PIC is issued.

   5. Procurement officers’ written delegations to include monthly limits for
      future verification and validation purposes.

Management’s Response. Concur. The PIC referenced above will provide guidance
on the requirement of procurement officers written delegations to include monthly limits
for future verification and validation purposes. The PIC will be issued by October 31,
2003.

Evaluation of Management's Response. Management's proposed action was
responsive to the recommendation. The recommendation is resolved but will remain
undispositioned and open until the proposed PIC is issued.

Inappropriate Purchases

Nineteen (about 3 percent) of the 660 sampled transactions involved inappropriate
purchases. The inappropriate purchases involved (a) items prohibited by Center policies,
statutes, regulations, U.S. General Accounting Office (GAO) decisions, or the NASA
FAR Supplement; (b) transactions reported by NASA to the Bank of America as
“fraudulent;” or (c) transactions being investigated by the NASA Office of Inspector
General (OIG) Office of Investigations. See Appendix F for a discussion of each of the
19 transactions. The fiscal impact associated with these 19 inappropriate purchases was
not material; however, the cardholders and approving officials were not fully aware of
their respective Center's policies on prohibited purchases, the GAO decisions restricting
the purchases of clothing and food, or the NASA FAR Supplement limits on
nonprocurement personnel placing orders. Further, Center personnel were not aware of
the requirement to notify the NASA OIG of suspected fraudulent transactions. Without
clarification and training, additional inappropriate purchases may occur.

Recommendations, Management's Response and Evaluation of Management's
Response

The Assistant Administrator for Procurement should:

   6. Require all Centers to conduct periodic refresher training for all cardholders
      and approving officials that covers Center-prohibited items and NASA FAR
      Supplement limitations.

Management’s Response. Concur. The Assistant Administrator for Procurement
issued a letter dated September 25, 2002, to procurement officers requiring that they
provide refresher training every 3 years for cardholders, approving officials, and alternate
approving officials. Currently, the NASA FAR Supplement requires that training address
the responsibilities of the cardholder and approving official, prohibited purchases,



                                             5
purchase limitations, and sources of supply. Additionally, the September 25, 2002, letter
also required that center program coordinators maintain records adequate to demonstrate
that all cardholders, approving officials, and alternate approving officials have completed
the required training.

Evaluation of Management's Response. Management's corrective actions were
responsive to the recommendation. The recommendation is resolved and dispositioned,
and will be closed for reporting purposes.

   7. Issue Agencywide guidance pertaining to statutes, regulations, and GAO
      decisions restricting the purchases of clothing and food, and include the
      restrictions in refresher training.

Management’s Response. Concur. A PIC will be issued by October 31, 2003, to
provide guidance on restrictions on the purchase of clothing and food as a result of
statutes, regulations, and GAO decisions. Procurement officers will be required to
include this guidance in training.

Evaluation of Management's Response. Management's proposed action was
responsive to the recommendation. The recommendation is resolved but will remain
undispositioned and open until the proposed PIC is issued.

   8. Require Centers to include in refresher training, the requirement to notify
      the NASA OIG of suspected fraudulent transactions referred to the Bank of
      America.

Management’s Response. Concur. A PIC will be issued by October 31, 2003, to
provide guidance/advise cardholders to notify the NASA OIG of suspected fraudulent
transactions.

Evaluation of Management's Response. Management's proposed action was
responsive to the recommendation. The recommendation is resolved but will remain
undispositioned and open until the proposed PIC is issued.

Other Procedural Weaknesses

We found 94 purchase transactions for which 1 or more of 9 existing procedural controls
had not been followed. Although the purchases were for appropriate items, we found 37
transactions involving approving officials who had not been trained. For 13 other
transactions, cardholders that had been trained split the purchases to avoid dollar limits
set by the FAR and NASA FAR Supplement. Further, we found two cardholders that
approved their own transactions (4 purchases) and two cardholders that allowed other
individuals to use their cards (2 purchases). See Appendix G for information on the
procedural weaknesses and the locations for all 94 transactions. Without the proper
training, approving officials may approve inappropriate items in future transactions.




                                             6
Further, cardholders bypassing controls undermine the effectiveness of the control system
and make preventing and detecting inappropriate purchases more difficult.

Recommendations, Management's Response and Evaluation of Management's
Response

9. The Assistant Administrator for Procurement should direct Centers to verify
   that all approving officials have been trained and that cardholders have been
   advised of the importance of the procedural controls over purchases.

Management’s Response. Concur. The Assistant Administrator for Procurement
initiated action that addresses this recommendation in his September 25, 2002, letter to
procurement officers requiring that they provide refresher training for cardholders,
approving officials, and alternate approving officials as part of IFM implementation.
This requirement ensures that all approving officials, including those who were not
trained previously, will get trained in order to successfully implement the IFM. The
September 25, 2002, letter also emphasized that Center program coordinator have critical
program and training surveillance responsibilities, and should maintain records adequate
to demonstrate that all cardholders, approving officials, and alternate approving officials
have completed the required training. In addition to the NASA FAR Supplement
1813.301-71 training requirements, the Centers' refresher training will reiterate the
importance of complying with Center procedures to ensure that the controls can function
as intended.

Evaluation of Management's Response. Management's corrective actions were
responsive to the recommendation. The recommendation is resolved and dispositioned,
and will be closed for reporting purposes.




                                             7
List of Appendixes

Appendix A – Status of Recommendations

Appendix B – Objectives, Scope, and Methodology

Appendix C – Transactions Reported as Fraudulent

Appendix D – Inactive Purchase Accounts

Appendix E – Purchase Account Limits Exceeded Guidelines or
             Authorization Limits

Appendix F – Inappropriate Transactions

Appendix G – Other Procedural Weaknesses

Appendix H – Management's Response

Appendix I – Report Distribution




Acronyms Used in the Report

FAR         Federal Acquisition Regulation
FY          Fiscal Year
GAO         U.S. General Accounting Office
OIG         Office of Inspector General




                                       8
                 Appendix A. Status of Recommendations

 Recommendation      Resolved       Unresolved   Open/ECD*   Closed
     Number
       1.               X                                      X
       2.               X                         10/31/03
       3.               X                         10/31/03
       4.               X                         10/31/03
       5.               X                         10/31/03
       6.               X                                      X
       7.               X                         10/31/03
       8.               X                         10/31/03
       9.               X                                      X

* ECD - Estimated Completion Date




                                          9
              Appendix B. Objectives, Scope, and Methodology

Objectives

The overall objective was to evaluate the effectiveness of NASA’s purchase card
program. Specifically, we determined whether:

   •   NASA had implemented appropriate internal controls over the use of SmartPay
       Purchase Cards and

   •   SmartPay Purchase Cards were being used efficiently and cost-effectively.

Scope and Methodology

We reviewed applicable regulations, policies, and documentation from NASA and other
Government agencies. During the review, we:

   •   Reviewed applicable sections of the Federal Acquisition Regulation (FAR),
       NASA FAR Supplement, Treasury Financial Manual, and other NASA guidance
       relevant to Government purchase cards.

   •   Conducted field work at 11 locations:

          -   NASA Headquarters (HQ)
          -   Ames Research Center (Ames)
          -   Dryden Space Flight Center (Dryden)
          -   Glenn Research Center (Glenn)
          -   Goddard Space Flight Center (Goddard)
          -   Johnson Space Center (Johnson)
          -   Kennedy Space Center (Kennedy)
          -   Langley Research Center (Langley)
          -   Marshall Space Flight Center (Marshall)
          -   Stennis Space Center (Stennis)
          -   Wallops Flight Facility (Wallops)

       We did not conduct work at the Jet Propulsion Laboratory (JPL), because
       effective October 1, 2001, JPL stopped participating in NASA’s purchase card
       program.

   •   Selected and reviewed a sample of 660 purchase transactions at 11 NASA
       locations to determine whether those purchases were made in accordance with
       existing guidelines. The sample consisted of 283 judgmentally sampled
       transactions and 377 randomly sampled transactions.

   •   Interviewed cardholders and approving officials regarding sampled transactions
       and NASA’s training and guidance for purchase card use.


                                           10
                                                                             Appendix B

   •   Evaluated the sampled transactions to identify any inappropriate purchases, assess
       the level of procedural compliance, and determine overall system effectiveness.

   •   Determined whether NASA had received its rebate from Bank of America for
       timely payments.

   •   Assessed the cost savings derived from the program.

Use of Computer-Processed Data

We used Bank of America (B of A) computer-generated NASA purchase card transaction
data and an account listing to generate our sample universe. We verified that the selected
purchase card transactions were accurately recorded by comparing the data to documents
at the NASA locations. We did not perform additional testing of the accuracy and
validity of the entire B of A purchase card transaction system. We relied on B of A
auditors’ reviews of the system controls.

Management Controls Reviewed

We reviewed management controls over the use of purchase cards, including:

   •   FAR Subparts 13.2, "Actions At or Below the Micro-Purchase Threshold"; and
       13.301, "Governmentwide commercial purchase card."

   •   NASA FAR Supplement Part 1813, “Simplified Acquisition Procedures.”

   •   Treasury Financial Manual Part 4, Chapter 4500, which was incorporated by
       reference in FAR 13.301(b).

   •   NASA Policy Directive 9800.1, “NASA Office of Inspector General Program.”

   •   Purchase card policies and procedures established for the 11 locations selected for
       review.

Review Field Work

We conducted review field work from July 2002 to January 2003 at the 11 locations
listed earlier. We performed the review in accordance with generally accepted
government auditing standards.




                                            11
Appendix B

Prior Audit Coverage

The NASA Office of Inspector General has previously issued reports related to the use of
purchase cards. The reports are summarized below. Copies of NASA reports are
available at http://www.hq.nasa.gov/office/oig/hq/audits.html.

"NASA's Use of SmartPay Purchase Cards," Report Number IG-00-050,
September 25, 2000. We reported that the program was effective overall, but that
NASA managers needed to remain vigilant over purchases because we found some
sampled purchases that did not meet the intent of the FAR and other Federal guidance.

"NASA’s International Merchant Purchase Authorization Card Program," Report
Number IG-98-011, May 4, 1998. Overall, the NASA purchase card program was
generally effective, and controls over the use of credit cards were in place. The program
had provided a quick and cost-effective way of making small purchases. However, in
view of the increasing number of cardholders and dollar amounts of purchases, NASA
needed to make improvements in the overall management of the program.




                                            12
            Appendix C. Transactions Reported as Fraudulent


NASA locations reported to the Bank of America 79 transactions that allegedly involved
fraudulent purchases. The locations had not notified the NASA OIG about these
purchases, as required by NASA Policy Directive 9800.1, “NASA Office of Inspector
General Program.” Without notification, the NASA OIG Office of Investigations is
unaware of information that may indicate a pattern of fraudulent use that requires
investigation. During the review, we referred the purchases to the NASA OIG Office of
Investigations for further action.




                                          13
                                                   Appendix D. Inactive Purchase Accounts




     Purchase Accounts              Ames Dryden Glenn          Goddard HQ Johnson           Kennedy     Langley    Marshall     Stennis   Wallops Total

     Inactive Due to:
       Death                          2                                                                      1                                       3
       Retirement                     5        6                   1                 1                      10          10                   1      34
       Resignation                    1        2                                     2                       2                                       7
       Termination                    2        1                                                                                                     3
       Current Contractor                                                                                                1*                          1
       Unidentifiable Individuals                                                                                       12**                        12
14




         Subtotal                    10        9          0        1        0        3           0          13          23            0      1      60

     Other Inactive Accounts ***     68       17       169        67       23      63          39         132         150         14        11     753

     Total Inactive Accounts         78       26       169        68       23      66          39         145         173         14        12     813


       * The Marshall purchase card coordinator closed the account during the review after we brought the account to her attention.
      ** Neither we nor NASA personnel at Marshall could identify these individuals.
     *** We could not determine why these accounts were inactive.
                  Appendix E. Purchase Account Limits Exceeded
                       Guidelines or Authorization Limits

     Limits        Ames Dryden Glenn Goddard HQ Kennedy   Langley   Marshall   Wallops   Total

Transaction
Limits Exceeded
NASA FAR
Supplement
Guidelines          5     11    5     15        1   7       10        28          3       85

Monthly Credit
Limits Exceeded
Authorization
Limits              0     8     1      3        0   0        1        17         0        30




                                           15
                       Appendix F. Inappropriate Transactions

        Category             Ames Glenn Goddard        Johnson   Kennedy   Langley     Other*    Total

Purchases Prohibited by
Center Policies                              3            4                    2                  9

Purchases Prohibited by
Statutes, Regulations, and
GAO Decisions                      1         1                      1                              3

Purchases Prohibited by
NASA FAR Supplement           1                                                                    1

Purchases Being
Investigated by OIG
Office of Investigations                                                                     3     3

Purchases Reported by
Cardholders as Fraudulent     2              1                                                     3
 Center Total                 3    1         5            4         1          2             3    19

* We cannot disclose the location of the 3 sampled transactions due to an ongoing NASA OIG
investigation.



Purchases Prohibited by Center Policies

Nine purchases with a total value of $12,675 were prohibited by the applicable Center's
policies. In certain cases, items on a Center's prohibited item lists may be purchased if
cardholders obtained advance approval. The cardholders either were not fully aware of
the prohibited item lists or had not sought advance approval for the following Center-
prohibited purchases.

         Goddard:
         1. Six trophies for peer awards ($1,395).
         2. Copying and binding services from Staples ($456).
         3. One-year hardware maintenance agreement ($1,750).

         Langley:
         1. College textbook purchased by a secretary (not training office personnel) for
            Center-funded training ($136).
         2. Construction contract to repair and enhance an existing electrical system
            ($2,490).




                                                  16
                                                                            Appendix F

       Johnson:
       1. Three separate purchases of information technology equipment; each piece of
          equipment exceeded $500. The purchases included printers, scanners, disk
          drives, and miscellaneous items. These purchases were individually valued at
          $2,076, $1,861, and $2,152.
       2. 12 V Gel Cell (considered hazardous material) for Advance Space Suit
          Testing ($359).


Purchases Prohibited by Statutes, Regulations, or General Accounting Office
(GAO) Decisions

Three purchases totaling $9,440 included inappropriate purchases for food and clothing.
The following are descriptions of the items purchased and the pertinent GAO decisions.

       Food
       One purchase at Goddard included a purchase of food for a 2-day Project
       Management Development Emprise retreat held locally. Goddard paid $7,884 for
       the conference facility, equipment, and meals for 50 attendees.

       The Comptroller General has stated that in general, absent statutory authority,
       appropriated funds are not available to feed Government employees at their duty
       station. One statutory authority, the Government Employees Training Act,
       5 U.S.C. 4101, provides for an agency to pay for employees' food if the agency
       determines such a cost is a necessary training expense. The NASA Federal Travel
       Regulation Supplement addresses this authority in § 301-11.1, which states, "An
       exception is allowed for training purposes … when it has been determined that
       overnight stays and attendance at meals are necessary in order to achieve the
       objectives of the training. …" No documented justification or determination
       existed to demonstrate how providing meals was necessary to achieve the
       objective of the retreat.




                                           17
Appendix F

         Clothing
         Two purchases of clothing, one each at Glenn and Kennedy, totaled $1,556.

         1. At Glenn's NASA Exchange store, a NASA employee purchased 10 winter
            jackets, totaling $1,264, for Glenn’s first response team. The jackets included
            embroidery of both inner and outer jacket shells with first responder logos.

         2. A NASA employee at Kennedy purchased 12 personalized golf shirts, totaling
            $292, for a contractor-operated investigations unit. According to the purchase
            card record, the shirts were necessary to properly identify the investigators as
            law enforcement personnel when responding to a crime scene. According to
            the cardholder, the shirts were issued when the investigators were attending a
            counter intelligence/terrorist program.

         Generally, absent statutory authorization, GAO considers clothing to be the
         employee's personal expense and has stated, "every employee of the government
         is required to present himself for duty properly attired according to the
         requirements of his position."1 GAO further stated that under 5 U.S.C. § 7903, an
         agency may procure special clothing “for the protection of personnel in the
         performance of their assigned tasks. In order for an item to be authorized by
         5 U.S.C. 7903, it must satisfy three tests.”2 The tests are: (1) the item must be
         “special” and not part of the ordinary and usual furnishings an employee may
         reasonably be expected to provide for himself, (2) the item is for the benefit of the
         Government,3 and (3) the employee must be engaged in hazardous duty.

         The justifications for Glenn’s purchase of winter jackets and Kennedy’s purchase
         of golf shirts did not fully satisfy the three GAO tests to qualify as allowable
         purchases.

         •   Winter Jackets - Regarding the first test (“special item”), we did not consider
             the winter jackets at Glenn special because the jackets were (a) part of the
             ordinary and usual furnishings an employee may reasonably be expected to
             provide for himself, (b) not designed for more extreme weather condition than
             that experienced locally, and (c) available for any employee at the exchange
             store. Regarding the second test (“benefit of the Government”), we did not
             consider the winter jackets for the Government’s benefit since no justification
             existed to indicate how the jackets were essential for the employees to




1
  63 Comptroller General 245 (1984).
2
  Comptroller General decision B-289683, October 7, 2002.
3
  The decision further defines benefit of the government as essential to the safe and successful
accomplishment of the work, and not solely for the protection of the employee.

                                                     18
Appendix F

             accomplish their work. While we recognize that the winter jackets were
             used to protect the employees from the weather, a Comptroller General
             decision (see footnote 2) stated, in part, “Without specific statutory
             authority, cold weather clothing is an employee’s personal responsibility,
             not the government’s …” Finally, regarding the third test (“hazardous
             duty”), the justification did not address any relevant occupational safety
             and heath issues related to hazardous duty.

             During the audit, Glenn officials concurred with our determination that the
             jacket purchases did not satisfy the GAO criteria.

         •   Golf Shirts - NASA purchased the golf shirts at Kennedy for contractor
             employees. Regarding the first test (“special item”), we did not consider
             the golf shirts special because the shirts were from a local store and, other
             than being personalized, were ordinary shirts available to the general
             public. Furthermore, we considered the golf shirts as ordinary and usual
             furnishings that contractor employees may reasonably be expected to
             provide for themselves. Regarding the second test (“benefit of the
             Government”), we did not consider the golf shirts for the Government’s
             benefit since no justification existed to indicate how the golf shirts were
             essential for the contractors to accomplish their work. Finally, regarding
             the third test (“hazardous duty”), the justification did not address
             occupational safety and health issues related to hazardous duty that would
             have reasonably necessitated the shirts.

             During the audit, Kennedy officials informed us that management took
             action to collect the money spent on the shirts for contractor employees.




                                           19
                                                                            Appendix F

Purchases Prohibited by NASA FAR Supplement

An Ames cardholder with a contracting officer warrant, who was not classified in a
procurement job series (that is, a GS-1102 or GS-1105), purchased $7,940 of
construction services through a blanket purchasing agreement (BPA). NASA FAR
Supplement 1813.303-3 (a)(4) specifically states, “Non-GS-1102 or -1105 personnel
shall not be authorized to place individual orders under a BPA in an amount greater than
$5,000.” Because the NASA FAR Supplement clause did not provide exceptions for
non-GS-1102 or -1105 contracting officers, this purchase was inappropriate.

Purchases Reported by Cardholders as Fraudulent

Three purchases, totaling $1,062, were disputed by two cardholders at Ames and
Goddard; both cardholders indicated that the transactions were fraudulent. The following
are the locations and descriptions of the three transactions.

Two purchases, totaling $979, at Ames were from the Men's Wearhouse. The cardholder
alleged that these purchases and 31 other transactions in the same billing period were
fraudulent purchases. The Bank of America credited the account for all disputed
transactions and was investigating the transactions.

One purchase for $83 at Goddard was from Claire's Boutique. The cardholder claimed
that he neither made the purchase nor authorized another person to use the card. The
cardholder disputed the transaction and received a credit from the vendor.




                                           20
                     Appendix G. Other Procedural Weaknesses


         Weakness            Ames     Glenn     Goddard      HQ    Johnson Langley    Marshall   Stennis   Total

Approving Official Not
  Trained                                3         30*                                   4                  37

Split Purchases                 2        1          8                             1       1                 13

Cardholder Approving
  Own Transactions                       3                                                1                  4

Cardholder Allowed
  Others to Use the Card                            2                                                        2

No Written Delegation
  of Authority                                               10                                    1        11

No Purchase Log                 4                   8                             2      1                  15

Supporting Document
  Not Available                                                1                          4                  5

Purchase Return Not
  Tracked                                1                                                                   1

NASA Property Not Tagged                 3          1                  2                                     6

  Center Total                  6       11         49        11        2          3     11          1       94

* Of the 30 transactions, 20 transactions at Goddard also involved split purchases.




                                                    21
Appendix H. Management's Response




               22
                                                                            Appendix H

Response to OIG recommendations - Draft Audit Report – Assignment Number A-02-027-00

Recommendation 1. The Assistant Administrator for Procurement should require
approving officials to conduct reviews of the 813 inactive accounts to determine whether
such accounts should be closed.

Response: Concur. The Assistant Administrator for Procurement initiated action that
addresses this recommendation in his September 25, 2002 letter to the procurement
officers requiring that they identify cards that are infrequently used and to confirm the
continued need for these cards. Additionally, procurement officers were requested to
examine the total number of cards within the same organization to ensure the appropriate
number of cardholders and to cancel/deactivate cards no longer required. During the first
quarter of FY03, 209 purchase cards (accounts) were cancelled. Center program
coordinator will review the accounts identified as inactive by the OIG to determine how
many have already been cancelled and whether the remaining accounts should be closed.
Based on actions already taken, this recommendation is considered closed.

Recommendation 2. The Assistant Administrator for Procurement should require
approving officials to establish procedures for periodic account reviews to identify
inactive accounts and to take appropriate action.

Response: Concur with Intent. While approving officials should be responsible for
the periodic review of the accounts for which they are responsible to ensure continued
need, center program coordinators are the appropriate individuals responsible for
establishing center procedures for periodic account reviews. In response to the letter
from the Assistant Administrator for Procurement dated September 25, 2002, several
centers have established procedures for the periodic review of accounts. A Procurement
Information Circular (PIC) will be prepared by October 31, 2003 to provide guidance for
periodic account reviews.

Recommendation 3. The Assistant Administrator for Procurement should require
approving officials to periodically review accounts and to adjust transaction limits and
credit limits to match the amounts authorized.

Response: Concur. The need for periodic account reviews that address transaction
limits will be included in the PIC referenced in the response to Recommendation 2. The
PIC will be issued by October 31, 2003.

Recommendation 4: The Assistant Administrator for Procurement should require center
management to establish procedures to maintain documentation of initial account
transaction and credit limits authorized and subsequent modifications.

Response: Concur. The PIC referenced above will provide guidance on the
requirement to maintain documentation of account transaction and credit limits and any
amendments to the amounts authorized. The PIC will be issued by October 31, 2003.
                                            23
Appendix H

Recommendation 5: The Assistant Administrator for Procurement should require
procurement officers’ written delegations to include monthly limits for future verification
and validation purposes.

Response: Concur. The PIC referenced above will provide guidance on the
requirement for procurement officers written delegations to include monthly limits for
future verification and validation purposes. The PIC will be issued by October 31, 2003.

Recommendation 6: The Assistant Administrator for Procurement should require all
centers to conduct periodic refresher training for all cardholders and approving officials
that covers center-prohibited items and NASA FAR Supplement limits.

Response: Concur. The Assistant Administrator for Procurement initiated action that
addresses this recommendation in his September 25, 2002 letter to the procurement
officers. The letter required that they provide refresher training for cardholders,
approving officials, and alternate approving officials as part of IFM implementation, and
stated that refresher training is required every three years thereafter. Currently, the
NASA FAR Supplement at 1813.301-71 requires that training address the responsibilities
of the cardholder and approving official, prohibited purchases, purchase limitations, and
sources of supply. Additionally, the September 25, 2002 letter required that center
program coordinators maintain records adequate to demonstrate that all cardholders,
approving officials, and alternate approving officials have completed the required
training. Based on action already taken, this recommendation is considered closed.

Recommendation 7: The Assistant Administrator for Procurement should issue agency-
wide guidance pertaining to statutes, regulations, and GAO decisions restricting the
purchases of gifts, clothing, and food, and include the restrictions in refresher training.

Response: Concur. A Procurement Information Circular will be prepared by October
31, 2003 to provide guidance on restrictions on the purchase of gifts, clothing, and food
as a result of statutes, regulations, and GAO decisions. Procurement officers will be
required to include this guidance in training.

Recommendation 8: The Assistant Administrator for Procurement should require
centers to include in refresher training, the requirement to notify the NASA OIG of
suspected fraudulent transactions referred to the Bank of America.

Response: Concur: A PIC will be prepared by October 31, 2003 to provide
guidance/advise cardholders to notify the NASA OIG of suspected fraudulent
transactions.

Recommendation 9: The Assistant Administrator for Procurement should direct centers
to verify that all cardholders and approving officials have been trained and have been
advised of the importance of the procedural controls over purchases.
                                             24
                                                                             Appendix H

Response: Concur. The Assistant Administrator for Procurement initiated action that
addresses this recommendation in his September 25, 2002 letter to the procurement
officers requiring that they provide refresher training for cardholders, approving officials,
and alternate approving officials as part of IFM implementation. This requirement
ensures that all approving officials, including those who were not trained previously, will
get trained in order to successfully implement the IFM. The September 25, 2002 letter
also emphasized that Center program coordinators have critical program and training
surveillance responsibilities, and should maintain records adequate to demonstrate that all
cardholders, approving officials, and alternate approving officials have completed the
required training. In addition to the NASA FAR Supplement 1813.301-71 training
requirements, the Centers’ refresher training will reiterate the importance of complying
with Center procedures to ensure that the controls can function as intended. Based on
action already taken, this recommendation is considered closed.




                                             25
                       Appendix I. Report Distribution


National Aeronautics and Space Administration (NASA) Headquarters

A/Administrator
AA/Chief of Staff
ADI/Associate Deputy Administrator for Institutions and Asset Management
ADT/Associate Deputy Administrator for Technical Programs
B/Deputy Chief Financial Officer for Financial Management
B/Deputy Chief Financial Officer for Resources (Comptroller)
BF/Director, Financial Management Division
G/General Counsel
H/Assistant Administrator for Procurement
HK/Director, Contract Management Division
HS/Director, Program Operations Division
J/Assistant Administrator for Management Systems
JM/Director, Management Assessment Division
L/Assistant Administrator for Legislative Affairs
M/Assistant Administrator for Space Flight
R/Acting Associate Administrator for Aerospace Technology
S/Associate Administrator for Space Science
Y/Associate Administrator for Earth Science

NASA Centers

ARC/D/Director, Ames Research Center
DFRC/X/Director, Dryden Flight Research Center
GRC/0100/Director, John H. Glenn Research Center at Lewis Field
GSFC/100/Director, Goddard Space Flight Center
JSC/AA/Director, Lyndon B. Johnson Space Center
KSC/AA/Director, John F. Kennedy Space Center
KSC/CC/Chief Counsel, John F. Kennedy Space Center
LaRC/106/(Acting) Director, Langley Research Center
MSFC/DA01/Director, George C. Marshall Space Flight Center
SSC/AA00/Director, John C. Stennis Space Center

Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Deputy Associate Director, Energy and Science Division, Office of Management and
 Budget
Branch Chief, Science and Space Programs Branch, Energy and Science Division, Office
 of Management and Budget




                                         26
                                                                          Appendix I


Non-NASA Federal Organizations and Individuals (Cont.)

Managing Director, Acquisition and Sourcing Management Team, General Accounting
 Office
Senior Professional Assistant, Senate Subcommittee on Science, Technology, and Space

Chairman and Ranking Minority Member – Congressional Committees and
Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies
Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
 and the Census
House Committee on Science
House Subcommittee on Space and Aeronautics, Committee on Science

Congressional Member

Honorable Pete Sessions, U.S. House of Representatives




                                         27
                  NASA Assistant Inspector General for Auditing
                                 Reader Survey

The NASA Office of Inspector General has a continuing interest in improving the
usefulness of our reports. We wish to make our reports responsive to our customers’
interests, consistent with our statutory responsibility. Could you help us by completing
our reader survey? For your convenience, the questionnaire can be completed
electronically through our homepage at http://www.hq.nasa.gov/office/oig/hq/audits.html
or can be mailed to the Assistant Inspector General for Auditing; NASA Headquarters,
Code W, Washington, DC 20546-0001.


Report Title: NASA’s Purchase Card Program Was Effective; Additional Controls Will
              Further Reduce Risk, IG-03-025, dated August XX, 2003



Circle The Appropriate Rating For The Following Statements.

                                                      Strongly                                Strongly
                                                       Agree     Agree   Neutral   Disagree   Disagree   N/A
1.   The report was clear, readable, and logically       5         4       3          2           1      N/A
     organized.
2.   The report was concise and to the point.            5         4       3          2          1       N/A
3.   We effectively communicated the audit               5         4       3          2          1       N/A
     objectives, scope, and methodology.
4.   The report contained sufficient information to      5         4       3          2          1       N/A
     support the finding(s) in a balanced and
     objective manner.

Overall, how would you rate the report?
#     Excellent         #    Fair
#     Very Good         #    Poor
#     Good
If you have any additional comments or wish to elaborate on any of the above
responses, please write them here. Use additional paper if necessary.
How did you use the report?




How could we improve our report?




How would you identify yourself? (Select one)

   #   Congressional Staff                 # Media
   #   NASA Employee                       # Public Interest
   #   Private Citizen                     # Other:
   #   Government:            Federal:          State:         Local:


May we contact you about your comments?

Yes: ______                                 No: ______
Name: ____________________________
Telephone: ________________________


Thank you for your cooperation in completing this survey.
Additional Copies

To obtain additional copies of this report, contact the Assistant Inspector General for
Auditing at (202) 358-1232.


Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Assistant Inspector General
for Auditing. Ideas and requests can also be mailed to:

     Assistant Inspector General for Auditing
     Code W
     NASA Headquarters
     Washington, DC 20546-0001


NASA Hotline

To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at (800)
424-9183, (800) 535-8134 (TDD), or at www.hq.nasa.gov/office/oig/hq/hotline.html#form;
or write to the NASA Inspector General, P.O. Box 23089, L’Enfant Plaza Station,
Washington, DC 20026. The identity of each writer and caller can be kept confidential,
upon request, to the extent permitted by law.


Major Contributors to the Report

Joseph Kroener, Director, Procurement             Joseph Fasula, Procurement Analyst

Lorne A. Dear, Associate Director,                Diane Frazier, Procurement Analyst
   Procurement

Patrick A. Iler, Project Manager,
    Procurement

Stephen K. Siu, Lead Auditor

Eugene R. Bauer, Auditor

Amy L. Larkin, Auditor

Lydia C. Lin, Auditor

Theresa Becker, Procurement Analyst
